                                                                              , a program director
                                                                       ber 31 1991. The
program M        r had been inform6d anonymously that the subject,                        a
                                           had fraudulently indicated on his successful NSF



fields of specialization list that accompanies the announcement. Because the program was in
the midst of awarding the next y a ' l s funding for the subject's fellowship they contacted the
institution and the subject to deterhne the subject's exact field of study. The program
subsequently decided that the subject's field of study mixed both                          work
and determined that he could receive support in those years he was solely engaged ni-
course work and research.

        After reviewing the relevant program and application materials OIG determined that the
subject had not fraudulently             his intended course of study. He had clearly stated his
desire to pursue training in bohta&
                                  - eas,                          emphasizing his desire to teach
and do research. OIG found that applicants for NSF fellowships submit their application




                                                                                           -
materials to a contractor, the National Research Council (NRC). The NRC convenes panels that
evaluate and mik the applications. Prior to their review of the applications, the panelists are
given a briefing and written documents describing the evaluation criteria; it is specifically noted
in these documents that -fields                      are NOT supported. A rank ordered list of
applications and the applications ak then forwarded to the NSF program for award or
declination action. The NSF program does not reevaluate the applications. As a result of the
program's concerns stemming from this case, the NSF staff have requested that the NRC place
greater emphasis in the instruction to the panelists on, and the panelists pay more attention to,
the assessment of eligibility.

       OIG contacted the institutiod's
                                          %
required and expected career paths differed for
                                                   d artment and asked how the courses
                                                         dents in its and other institutions'
programs so that its students were qualified for NSF Graduate Fellowships w h e m
students
 ,       at other institutions were not qualified.

       The institution responded that, as of last year, there were no differences between its
curriculum and that at peer institutiodh. Prior to that time the institution's students were, unlike
students at other in&tutions, requ& to 'take c!-fousres.                                       That
requirement is no longer in effect.

        OIG determined that the subject had not falsif~edinformation on his application, that the
NSF program had strengthened the review of applications, and the remaining issue, the
eligibility of future applicants from t k s institution, was program-related. The information OIG
received from the department chairrnb was forwarded to the NSF program.

                                            Page 1 of 2
                             CLOSHOUT FOR M92010001
       OIG found that there was no sibstance to the allegation of falsifcation and closed this
case without a finding of misconduct.
                                      1
                                      li


                                41r7143

Staff Scientist, Oversight

Concumnce:




Donald E. Buzzelli
Deputy Assistant Inspector General for                Assistant Inspector General for Oversight
Oversight



Montgomery K. Fisher                       11


Counsel to the Inspector General            I




cc:    Signatories
       Inspector General




                                                Page 2 of 2
